HHS/OIG - Audit,"Review of Additional Benefits Reported by PacifiCare of Texas in the Calendar Year 2000 Adjusted Community Rate Proposal for its San Antonio, Texas Plan,"(A-06-01-00064)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Additional Benefits Reported by PacifiCare of Texas in the Calendar
Year 2000 Adjusted Community Rate Proposal for its San Antonio, Texas Plan," (A-06-01-00064)
May 31, 2002
Complete
Text of Report is available in PDF format (709 kb).  Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of additional benefits
reported by Pacificare of Texas (Pacificare), in the Calendar year (CY) 2000 Adjusted
Community Rate Proposal (ACRP) for the San Antonio, Texas plan.  Our review
showed that the additional benefits estimated in Pacificares CY 2000 ACRP were
available to Medicare beneficiaries at the levels and co-payments priced in the
ACRP, except for additional chiropractic care services. Pacificare estimated $107,355
for additional chiropractic services that were not supported or offered to its
members. PacifiCare agreed with our audit results and stated that it (1) revised
the ACRP preparation and pricing methodology to ensure that only additional benefits
available to Medicare beneficiaries are included in the ACRP; (2) examines the
accounting system and supporting documentation annually to ensure that appropriate
detail data is available for all material Medicare benefits; and (3) monitors the
controls for maintaining copies of all provider contracts.